CERTIFICATE OF SERVICE
I certify that a true copy of this
PETITION FOR WRIT OF CERTIORARI
In The
Supreme Court of The United States of America
Shall be served personally toTo: The COURT CLERK FOR THE UNITED STATES SUPREME COURT
Residing at: l FIRST STREET NE-WASHINGTON-DC 20543-U.S.A.
To: Respondent(s):
KELLY DUNNAWAY-Douglas County Attorney
100 Third Street, Castle Rock, CO 80104
(kdunnaw ay@douglas. co. us)

EMBOSSED SEAL
Gentleman William September 5th of 2019

Legal Signature For The Frathchige WILLIAM JENKINS

